Highlights
Table of Contents




                    Delegations
                    of Contracting
                    Authority Outside
                    of Supply
Findings




                    Management
Recommendations




                    Audit Report
                    Report Number
                    SM-AR-14-007

                    August 5, 2014
Appendices




                                        Print
Highlights
Table of Contents




                    Highlights                             Background                                                          These deficiencies occurred in an environment with no
                                                                                                                               separation of duties in the Facilities program office that
                                                           The U.S. Postal Service’s Supply Management organization
                                                                                                                               identified the need for services, established contracting policy,
                                                           is responsible for approving contracts to acquire goods and
                                                                                                                               and secured contracts.
                                                           services. However, the postmaster general and the vice
                                                           president, Supply Management, can delegate contracting              It would benefit the Postal Service to rescind the delegation and
Findings




                                                           authority to personnel outside of Supply Management.                transfer the responsibilities for Facilities service contracts to
                        Five of the six delegations of                                                                         the vice president, Supply Management, to ensure consistent
                                                           In response to a U.S. Postal Service Office of Inspector General
                                                                                                                               contracting practices for procuring goods and services.
                        contracting authority outside      report issued in September 2010, the Postal Service revoked
                                                           the majority of its delegations. As of September 2013, the          In addition, during our review we found Postal Service officials
                        of Supply Management were          Postal Service reported six delegations for marketing, real         were not aware that Information Technology personnel executed
                                                           estate, confidentiality, and interagency agreements. Our            revenue-generating agreements with mail service providers
                           reasonable and contained        objectives were to determine whether current delegations of
Recommendations




                                                                                                                               without a required delegation. Specifically, officials could not
                             adequate controls over        authority are reasonable and internal controls are adequate.        locate evidence of a delegation granting authority for personnel
                                                                                                                               to sign agreements with service providers who provide address
                           delegation requirements;        What The OIG Found                                                  quality data to mailers. Without sufficient controls and oversight
                          however, internal controls       Five of the six delegations were reasonable and contained           of delegations, the Postal Service is at risk of fraud and waste
                                                           adequate controls over delegation requirements; however,            from improper contracting activity, which could harm the
                       and oversight of the Facilities     internal controls and oversight of the Facilities delegation need   Postal Service’s brand.
                                                           improvement. Facilities did not require contracting officers
                      delegation need improvement.
                                                           to meet professional qualifications or establish sufficient         What The OIG Recommended
                                                           competition requirements for contracts. Also, Facilities could      We recommended the postmaster general rescind the
                                                           not identify its active contracts and did not timely submit the     delegation to Facilities for service contracts and ensure
Appendices




                                                           required annual reports.                                            personnel responsible for signing agreements with service
                                                                                                                               providers have contracting authority.



                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                                                                                                                       Print                                       1
Highlights
                    Transmittal Letter


                                                           August 5, 2014
Table of Contents




                                                           MEMORANDUM FOR:	 PATRICK R. DONAHOE
                                                           				             POSTMASTER GENERAL AND CHIEF EXECUTIVE
                                                           				OFFICER

                                                           				TOM A. SAMRA
                                                           				 VICE PRESIDENT, FACILITIES




                                                           				

                                                           FROM: 			                   John E. Cihota
Findings




                                                           				                        Deputy Assistant Inspector General
                                                           				                         for Finance and Supply Management

                                                           SUBJECT: 			 Audit Report – Delegations of Contracting Authority
                                                           				Outside of Supply Management
                                                           				(Report Number SM-AR-14-007)

                                                           This report presents the results of our audit of Delegations of Contracting Authority
Recommendations




                                                           Outside of Supply Management (Project Number 13YG020SM000).

                                                           We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                           questions or need additional information, please contact Keshia L. Trafton, director,
                                                           Supply Management and Facilities, or me at 703-248-2100.

                                                           Attachment

                                                           cc:	   Corporate Audit and Response Management
Appendices




                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                                                                                                 Print             2
Highlights
                    Table of Contents
                                                           Cover
                                                           Highlights.......................................................................................................1
                                                            Background.................................................................................................1
                                                            What The OIG Found..................................................................................1
                                                            What The OIG Recommended...................................................................1
Table of Contents




                                                           Transmittal Letter...........................................................................................2
                                                           Findings.........................................................................................................4
                                                            Introduction.................................................................................................4
                                                            Conclusion..................................................................................................4
                                                            Facilities’ Internal Controls Over Service Contracts....................................6
                                                              Contracting Officer Professional Qualification Standards........................6
                                                              Competition Requirements ......................................................................6
                                                              Identification of Active Contracts..............................................................7
                                                              Oversight of Facilities Delegation ............................................................8
Findings




                                                            Oversight of Address Quality Service Agreements.....................................9
                                                           Recommendations......................................................................................10
                                                            Management’s Comments........................................................................10
                                                            Evaluation of Management’s Comments.................................................. 11
                                                           Appendices..................................................................................................12
                                                            Appendix A: Additional Information...........................................................13
Recommendations




                                                              Background............................................................................................13
                                                              Objectives, Scope, and Methodology.....................................................13
                                                              Prior Audit Coverage..............................................................................15
                                                            Appendix B: Summary of Delegations......................................................16
                                                            Appendix C: Management’s Comments...................................................17
                                                           Contact Information.....................................................................................21
Appendices




                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                                                                                                                     Print                      3
                    Findings                               Introduction
Highlights

                                                           This report presents the results of our self-initiated audit of Delegations of Contracting Authority Outside of Supply Management
                                                           (Project Number 13YG020SM000). This audit is a follow-up to our previous audit of delegations of authority.1 Our objectives were
                                                           to determine whether current delegations of authority are reasonable and internal controls are adequate. See Appendix A for
                                                           additional information about this audit.

                                                           The U.S. Postal Service’s Supply Management organization is responsible for contracting goods and services; however, the
                                                           postmaster general (PMG) and the vice president (VP), Supply Management, can delegate contracting authority to personnel
                                                           outside of Supply Management. Delegations allow employees to negotiate and execute binding agreements between the
Table of Contents




                                                           Postal Service and other entities and establish policies to govern these agreements.

                                                           In response to the U.S. Postal Service Office of Inspector General (OIG) report issued in September 2010, the Postal Service
                                                           revoked the majority of its delegations. As of September 2013, the Postal Service reported six delegations for marketing, real
                                                           estate, confidentiality, and interagency agreements (see Appendix B).
                           Facilities did not require
                                                           When the OIG issued its report, Facilities was operating under a delegation of authority from the VP, Supply Management, which
                        contracting officers to meet       took effect December 23, 2005. The Postal Service revoked that delegation and replaced it with a delegation from the PMG to
                                                           the VP, Facilities, which took effect May 7, 2013. Management stated that Facilities had real estate expertise to execute service
                      professional qualifications or
                                                           contracts related to real estate transactions, such as property disposals and leases. During fiscal years (FY) 2012 and 2013,
                    establish sufficient competition       Facilities contracted with 196 suppliers for services totaling $9.8 million to support more than 8,400 real estate transactions. The
                                                           contracts included a national contract with CB Richard Ellis Group, Inc. (CBRE).2 During FYs 2012 and 2013, the Postal Service
                        requirements for contracts.
Findings




                                                           paid CBRE $5.4 million.

                    Also, Facilities could not identify    Conclusion
                        its active contracts and did       Five of the six delegations were reasonable and contained adequate controls over delegation requirements. These delegates3
                                                           performed and reported activities within their delegated authority and properly contracted for goods and services through
                     not timely submit the required        Supply Management. However, internal controls and oversight of the Facilities delegation need improvement.
                                   annual reports.         Facilities did not require COs to meet professional qualifications or establish sufficient competition requirements for contracts.
Recommendations




                                                           Also, Facilities could not identify its active contracts and did not timely submit the required annual reports.

                                                           These deficiencies occurred in an environment with no separation of duties in the Facilities program office that identified the need for
                                                           the services, established contracting policy, and secured contracts. We benchmarked against four government agencies and found
                                                           that they delegated real estate authority to departments outside of their procurement departments. Two of the four also authorized
                                                           their real estate COs to contract for goods and services, including real estate services, and required them to follow the same policies
                                                           as the organization’s procurement unit. In contrast, the Postal Service’s Facilities delegation allowed the VP, Facilities, to develop
                                                           contracting policies and procedures for real estate and related services that were separate from those developed by Supply
                                                           Management.
Appendices




                                                           1	 U.S. Postal Service Purchasing Policies (Report Number CA-AR-10-005, dated September 20, 2010).
                                                           2	 The OIG previously reported in the Contracting of Real Estate Management Services (Report Number SM‑AR‑13‑001, dated June 12, 2013) that Postal Service Facilities
                                                              officials did not establish a maximum contract value. Also,the Contracting Officer (CO) did not properly approve contract payments, appoint representatives to monitor
                                                              contract performance, or ensure services were provided.
                                                           3	 A person designated to act for or represent another or others.
                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                                                                                                                                                Print                                                  4
Highlights                                                 Because of our prior audit work, the Postal Service took action to significantly reduce the number of delegations for goods and
                                                           services; however, it did not improve the oversight of the Facilities delegation as evidenced by the internal control deficiencies with
                                                           managing contracts and late financial reporting. It would benefit the Postal Service to rescind the delegation of authority and
                                                           transfer the responsibilities for Facilities service contracts to the VP, Supply Management, to ensure consistent contracting
                                                           practices for procuring goods and services.

                                                           In addition, our audit revealed Postal Service officials were not aware that Information Technology personnel executed
                                                           revenue-generating agreements with mail service providers without a required delegation. Officials could not provide a
                                                           delegation granting authority for personnel to sign agreements with service providers who provide data to mailers. Without
Table of Contents




                                                           sufficient controls and oversight of delegations, the Postal Service is at risk of fraud and waste from improper contracting
                                                           activity, which could harm its brand.




                                                                             Internal controls and oversight of
                                                                          the facilities delegation need improvement
                                                                                                  hover over buttons for more info...
Findings




                                                                            Contr acting
                                                                                                                                                            Identification
                                                                               Officer                              Competition                                   of
                                                                            Professional                            Requirements                                Active
                                                                            Qualification
                                                                                                                                                              Contr acts
                                                                             Standards
Recommendations




                                                                        Due to insufficient controls and oversight of the
                                                                      Facilities delegation, it would benefit the Postal Service
                                                                      to rescind the delegation and tr ansfer responsibilities
                                                                            for service contr acts to Supply Management.
Appendices




                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                                                                                                                        Print                                    5
Highlights                                                 Facilities’ Internal Controls Over Service Contracts
                                                           Internal controls and oversight of the Facilities delegation need improvement. Specifically, Facilities did not require COs to meet
                                                           professional qualifications or establish sufficient policy requirements for competitive and noncompetitive contracts. Also, Facilities
                                                           could not identify its active contracts and did not timely submit the required annual reports.

                                                           Contracting Officer Professional Qualification Standards
                                                           The Postal Service did not require Facilities COs to meet professional qualification standards, including annual contract training.
                                                           The Facilities delegation allowed the VP, Facilities, to develop policies and procedures unique to contracts for real estate and
Table of Contents




                                                           related services. Prior to 2006, the Postal Service required COs to meet qualification and training standards; however, in 2006 the
                                                           VP, Facilities, created an internal guidance document4 eliminating these requirements. Based on this revised guidance, Facilities
                                                           COs need only meet the general requirements — specifically, COs must be career employees in good standing and have a
                                                           sufficient understanding of Postal Service real estate contracting policies and procedures. In contrast, Supply Management COs
                                                           must meet professional qualifications, including specific experience, education, and training requirements, to obtain and maintain
                                                           contracting authority.5 The level of contract authority assigned to a Supply Management CO is based on years of experience.
                        Facilities did not require COs     Also, as of July 30, 2007, Supply Management COs must have baccalaureate degrees and completed at least 24 semester hours
                            to justify noncompetitive      in subjects related to purchasing. Furthermore, Supply Management COs must complete formal purchasing training to obtain
                                                           contracting authority and 21 hours of training annually to maintain this authority. Requiring Facilities COs to meet professional
                                          contracts.       qualification standards would decrease the Postal Service’s risk of improper contracting activity.

                                                           Competition Requirements
Findings




                                                           The VP, Facilities, did not establish sufficient requirements to ensure fair competition in awarding contracts and completion of
                                                           justifications for noncompetitive contracts. For competition of contracts, Handbook RE-1 states that, generally, purchases valued
                                                           at more than $25,000 are made on the basis of adequate competition.6 Further, internal guidance7 states that, under normal
                                                           circumstances, COs should obtain two or three work proposals; however, the handbooks do not specify how to engage in fair
                                                           competition. In contrast, the Postal Service requires Supply Management COs to do a comparative analysis of all proposals and
                                                           rank them (including price proposals), discuss and negotiate with selected suppliers, and determine the best value for the
                                                           Postal Service. In addition, selection committees ensure the process is fair and balanced.
Recommendations




                                                           Facilities did not require COs to justify noncompetitive contracts. In contrast, Supply Management requires justifications for contracts awarded
                                                           noncompetitively.8 Not requiring justifications for noncompetitive contracts puts the Postal Service at risk of not receiving best value.
Appendices




                                                           4	 Implementing Handbook RE-1 in Postal Real Estate Actions was created from Handbook RE-1, U.S. Postal Service Facilities Guide to Real Property Acquisitions and
                                                              Related Services.
                                                           5	 Supplying Principles and Practices, General Practice 7-1, Appointment and Selection of Contracting Officers.
                                                           6	 Handbook RE-1, Chapter 32, Section 322, Competition.
                                                           7	 Implementing Handbook RE-1 in Postal Real Estate Actions was created from Handbook RE-1, U.S. Postal Service Facilities Guide to Real Property Acquisitions and
                                                              Related Services.
                                                           8	 Supplying Principles and Practices, Supplying Practice 2-10.3, Noncompetitive Purchases.
                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                                                                                                                                              Print                                             6
Highlights                                                 Identification of Active Contracts
                                                           Facilities could not identify the universe of active contracts. This occurred because Facilities did not require employees to put
                                                           contracts into the electronic Facilities Management System (eFMS).9 In contrast, Supply Management COs must create contracts
                                                           in Supply Management’s data system.10 Also, Facilities personnel did not receive training on how to create and input contracts
                                                           for services in the eFMS. Rather than creating a contract number for each contract, they created separate contract numbers
                                                           each time a contract payment was due. For example, the eFMS detailed 110 active contract numbers for a supplier with just one
                                                           contract. Personnel should have created 110 work orders under one original contract number. In another example, five contracts
                                                           for tax abatement services11 were not in the eFMS. The CO stated that he only put information into the eFMS when payments were
Table of Contents




                                                           due and was not aware of any other file maintenance requirements.

                                                           If employees are not required to put contract information into the eFMS and are not trained on how to properly do it, management
                                                           cannot ensure proper contract oversight or accuracy in reporting Facilities contracting activity.

                                                           These internal control deficiencies occurred in an environment where there was no separation of duties between the program
                                                           office and contracting activities. The Facilities organization that identified the need for services was also responsible for
                                                           establishing contracting policy and procuring services. We benchmarked against four government agencies and found that they
                                                           delegated real estate authority to departments other than their procurement departments. Two of the four granted their real estate
                                                           COs authority to contract for goods and services, including real estate services; however, the delegations required COs to follow
                                                           the same policies as the organizations’ procurement units. See Table 1.
Findings




                                                           Table 1: Benchmarking of Real Estate Delegations

                                                                                                                       Real Estate                   Contract for Real
                                                                            Organization                               Delegation                    Estate Services
                                                            Postal Service                                                   Yes                               Yes
                                                            Architect of the Capitol                                         Yes                               No
                                                            U.S. Department of the Army1                                     Yes                               Yes
                                                            U.S. Department of the Navy2                                     Yes                               Yes
Recommendations




                                                            U.S. General Services Administration                             Yes                               No
                                                            (GSA)
                                                            Source: OIG analysis.
                                                            1 U.S. Army Family and Morale, Welfare and Recreation Command.
                                                            2 Commander, Naval Installation Command.
Appendices




                                                           9	 The eFMS database is the official Postal Service record for real property inventory that it uses to manage all property-related projects including acquisitions, disposals,
                                                               and repairs.
                                                           10	 Contract Authoring Management System.
                                                           11	 Services performed by contractors to review the reasonableness of tax assessments for properties leased by the Postal Service and appeal the assessment, if
                                                               appropriate. In return, the Postal Service pays the contractor a portion of any tax savings realized.
                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                                                                                                                                                     Print                                                  7
Highlights                                                 Oversight of Facilities Delegation
                                                           The VP, Facilities, did not timely submit the required annual financial report for FYs 2011 through 2013. The annual report
                                                           summarizes contractual actions performed under the delegation, including the number and dollar amounts of contracts signed
                                                           during the fiscal year and whether the contracts were awarded competitively or noncompetitively. Facilities personnel stated
                                                           they did not timely submit FY 2011 or FY 2012 reports to Finance, as required by the delegation letter issued by the VP, Supply
                                                           Management, because of reorganization activities within Facilities and Supply Management. Supply Management personnel
                      The Postal Service took action       overlooked submission of the report because they were in the process of rescinding other delegations of authority. During our
                                                           audit, Facilities management were still revising the FY 2013 report and had not yet submitted it to the chief operating officer, as
Table of Contents




                          to significantly reduce the      required by the delegation letter issued by the PMG. If the VP, Facilities, does not file the annual financial report, the real estate
                                                           transactions and contract agreements under the delegation may not receive sufficient oversight. In June 2014, the VP, Facilities,
                    number of delegations for goods        submitted the required annual financial reports for FYs 2011 through 2013 to the chief operating officer.
                        and services; however, it did
                                                           In 2009, we reported that once the Postal Service delegated contractual authority it did not have adequate controls to ensure
                        not improve oversight of the       employees met financial due diligence and principles for guiding the delegations.12 The Postal Service agreed to improve controls;
                                                           however, in 2010, we reported the Postal Service had not improved the controls and a Postal Service official agreed to
                                Facilities delegation.     a noncompetitive contract under his delegation for purposes other than what the delegation allowed.13 The official created the
                                                           $1.6 million contract award to pay for a previous unauthorized contractual commitment.14 This action circumvented the appropriate
                                                           contracting process and violated the terms of the delegation. Based on our recommendation, the Postal Service took action
                                                           to significantly reduce the number of delegations for goods and services; however, it did not improve oversight of the Facilities
                                                           delegation as evidenced by the internal control deficiencies with managing contracts and lack of timely financial reporting.
Findings




                                                           Due to the internal control deficiencies with Facilities contracts and the continued absence of oversight of delegations of authority,
                                                           it would benefit the Postal Service to rescind the delegation of authority to Facilities and transfer the responsibilities for Facilities
                                                           service contracts to the VP, Supply Management, to ensure consistent contracting practices for procuring goods and services.
                                                           Without sufficient contracting controls and oversight, the Postal Service is at risk of fraud and waste from improper contracting
                                                           activity, which could harm the Postal Service’s brand.
Recommendations
Appendices




                                                           12	 Supply Management’s Oversight of Delegations of Authority (Report Number CA-AR-09-005, dated June 1, 2009).
                                                           13	 U.S. Postal Service Purchasing Policies (Report Number CA-AR-10-005, dated September 20, 2010).
                                                           14	 An unauthorized contractual commitment occurs when a Postal Service employee who has not been delegated contracting or local buying authority, or who exceeds such
                                                              authority, by his or her actions causes another party to deliver or provide goods or services.
                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                                                                                                                                              Print                                             8
Highlights                                                 Oversight of Address Quality Service Agreements
                                                           Postal Service officials were not aware that Information Technology personnel executed revenue-generating agreements, called
                                                           Address Quality Service agreements, with mail service providers without a required delegation. Specifically, management could
                                                           not provide evidence of a delegation letter granting authority for Postal Service personnel to sign agreements with service
                                                           providers who pay a license fee for mailing list data.15 These service providers paid a fee for licenses to develop and distribute
                                                           address matching applications and to receive Postal Service change-of-address data, address mailing lists, and correction
                                                           services. The agreements represent the Postal Service generating revenue for provision of services for compensation that is within
                                                           the definition of a contract; therefore, personnel signing the agreements should have proper contracting authority. Postal Service
Table of Contents




                                                           personnel signed the agreements as COs’ representatives but did not know who delegated contracting authority to them.

                                                           Postal Service personnel responsible for managing the PMG’s delegations of contracting authority could not locate a current
                                                           delegation and stated they would have to do further research to determine whether one ever existed. Therefore, we are taking the
                                                           position that a delegation letter does not exist and the Postal Service should issue one for this revenue-generating activity. Without
                                                           the delegation of contracting authority, the agreements are not legally binding unless ratified16 by a Postal Service official with
                                                           contracting authority. The OIG is reviewing the sufficiency of the agreements in another audit.
Findings
Recommendations
Appendices




                                                           15	 As of January 21, 2014, there were 515 active National Change of Address (NCOA)Link agreements. NCOALink is one of several modules in the NCOA system and is used
                                                               to help mailers correct their mailing address lists.
                                                           16	Ratification is the process of formalizing and approving contracts that have been entered into without authorization. Ratification is not automatic and the employee who
                                                               causes the ratification may be required to assume some or all of the liability for the contract in addition to other administrative sanctions.
                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                                                                                                                                                  Print                                                  9
Highlights
                    Recommendations                        We recommend the postmaster general and chief executive officer:

                                                           1.	 Rescind the delegation to the vice president (VP), Facilities, for real estate services contracts and transfer the responsibilities
                                                               for these contracts to the VP, Supply Management, to ensure consistent contracting practices for the procurement of goods and
                                                               services.

                                                           2.	 Establish an interim process to ensure that Facilities timely submits the annual financial report of real estate transactions, as
                                                               required in its delegation letter, until management rescinds the delegation.
Table of Contents




                                                           3.	 Determine whether current Address Quality Service agreements should be ratified.
                      We recommend the postmaster
                                                           4.	 Delegate contracting authority to personnel responsible for signing Address Quality Services agreements.
                      general rescind the delegation
                                                           5.	 Develop a process to identify contracts and agreements that may not have a delegation of authority.
                              to Facilities for service
                                                           Management’s Comments
                     contracts and ensure personnel
                                                           Management agreed with the findings and recommendations 2, 3, 4, and 5; however, management disagreed with
                             responsible for signing       recommendation 1. Specifically, although management agreed that improvements in the Facilities organization are needed,
                                                           management did not agree that rescinding the delegation to the VP of Facilities is the appropriate way to improve contracting
                            agreements with service
                                                           practices. Rather, management stated the VP of Facilities is developing a plan, which includes a schedule for implementation of
Findings




                                     providers have        corrective actions, to address the OIG’s concerns. The following actions will be addressed by the plan, scheduled to be completed
                                                           by September 23, 2014:
                               contracting authority.
                                                           ■■ Review standards and qualifications for COs in other Postal Service areas and develop appropriate standards for issuing and
                                                              maintaining warrants for Facilities’ COs.

                                                           ■■ Develop a process for noncompetitive and competitive contracting for real estate services based on the existing policies and
                                                              procedures for competition used by the Postal Service, including those of Supply Management.
Recommendations




                                                           ■■ Determine available and appropriate training for Facilities’ personnel to ensure compliance with the improved contracting
                                                              processes to be developed.

                                                           In response to recommendation 2, management agreed to establish a process by September 30, 2014, to ensure Facilities timely
                                                           submits the annual financial report of real estate transactions.

                                                           In response to recommendation 3, management agreed to review current Address Quality Service agreements and issue
                                                           ratifications as needed. Management’s target implementation date is September 30, 2014.

                                                           In response to recommendation 4, management agreed to delegate contracting authority to personnel responsible for signing
Appendices




                                                           Address Quality Service agreements. Discussions are underway, and management’s target implementation date is
                                                           September 30, 2014.

                                                           In response to recommendation 5, management agreed to develop a process by September 30, 2014, that identifies contracts and
                                                           agreements that may not have a delegation of authority. Management stated that discussions are underway between
                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                                                                                                                         Print                                     10
Highlights                                                 the Postal Service’s Office of General Counsel and Address Management to advance the completion of this recommendation.

                                                           See Appendix C for management’s comments in their entirety.

                                                           Evaluation of Management’s Comments
                                                           The OIG considers management’s comments responsive to all the recommendations and the corrective actions should resolve the
                                                           issues in the report related to recommendations 2, 3, 4, and 5.
Table of Contents




                                                           Regarding management’s response to recommendation 1, we cannot determine whether corrective actions will resolve the related
                                                           issue in the report. Rescinding Facilities’ delegation of authority would be in the best interest of the Postal Service because
                                                           of the internal control deficiencies with Facilities’ contracts and the continued absence of oversight of delegations of authority.
                                                           Nevertheless, developing and implementing the plan to address the concerns provide an opportunity to improve the Facilities
                                                           contracting practices. We emphasize that these actions should be comparable in quality and standards to Supply Management’s
                                                           contracting practices. The recommendation will remain open until the OIG can assess the plan and timeframes for implementation.

                                                           Regarding management’s response to recommendation 5, for clarification, we recommend the Postal Service identify any
                                                           contracts and agreements that may not have an appropriate delegation, not just Address Quality Service agreements.

                                                           The OIG considers all recommendations significant, and therefore requires OIG concurrence before closure. Consequently, the
                                                           OIG requests written confirmation when corrective actions are completed. These recommendations should not be closed in the
Findings




                                                           Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendations can be closed.
Recommendations
Appendices




                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                                                                                                                     Print                                  11
Highlights
                    Appendices
                                                           Appendix A: Additional Information...........................................................13
                                                            Background............................................................................................13
                                                            Objectives, Scope, and Methodology.....................................................13
                                                            Prior Audit Coverage..............................................................................15
                          Click on the appendix title      Appendix B: Summary of Delegations......................................................16
Table of Contents




                           to the right to navigate to     Appendix C: Management’s Comments...................................................17

                                the section content.
Findings
Recommendations
Appendices




                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                                                                                                              Print                    12
Highlights          Appendix A:                            Background
                    Additional Information                 The Postal Service’s Supply Management organization is responsible for contracting for the majority of the Postal Service’s
                                                           supplies and services. Federal law17 grants the authority, which states that only the PMG; the VP, Supply Management; COs with
                                                           written statements of specific authority; and others designated in writing have the authority to bind the Postal Service with respect
                                                           to entering into, modifying, or terminating any contract for acquiring property, services, and related purchasing matters.

                                                           The PMG and the VP, Supply Management, have used the authority to delegate contracting outside of Supply Management.
                                                           Delegations of contracting authority allow Postal Service employees to negotiate and execute binding agreements between the
Table of Contents




                                                           Postal Service and other entities. As of September 2013, the PMG and the VP, Supply Management, have six delegations of
                          During FYs 2012 and 2013,        contracting authority outside of Supply Management.

                           Facilities contracted with      In response to an OIG report issued in September 2010, the Postal Service revoked all delegations related to purchasing goods
                                                           and services, except for the delegation to the VP, Facilities. That VP continued to have authority to execute service contracts
                           196 suppliers for services
                                                           related to real estate transactions, such as property disposal and leases. The VP, Supply Management, said the delegation
                              totaling $9.8 million to     remained in place because these contracts are related to real estate transactions, which are outside the expertise of Supply
                                                           Management, and that most of the contracts are for small amounts paid to local vendors for services that are immediately needed.
                                  support more than        During FYs 2012 and 2013, Facilities contracted with 196 suppliers for services totaling $9.8 million to support more than
                                                           8,400 real estate transactions. The contracts include a national contract with CBRE. During FYs 2012 and 2013, the Postal
                       8,400 real estate transactions.
                                                           Service paid CBRE $5.4 million.
Findings




                                                           As of September 2013, the PMG and the VP, Supply Management, had five other delegations of authority in place. Those
                                                           delegations are for marketing, confidentiality, and agreements with other federal agencies.

                                                           Objectives, Scope, and Methodology
                                                           Our objectives were to determine whether current contracting delegations of authority are reasonable and internal controls are
                                                           adequate.
Recommendations
Appendices




                                                           17	 Title 39 Code of Federal Regulations, Section 601.104, Postal Purchasing Authority.
                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                                                                                                                       Print                                  13
Highlights                                                 To accomplish our objectives, we:

                                                           ■■ Reviewed delegations of authority and interviewed Supply Management personnel; the chief marketing and sales officer,
                                                              executive VP; the VP, Global Business; and the manager, Digital Alliances, to determine whether internal controls were in place
                                                              to track and monitor these requirements.

                                                           ■■ Reviewed documentation to determine whether Postal Service officers and VP, Sales, redelegated their authority based on
                                                              their delegation and obtained the names of the individuals receiving the redelegation of authority.
Table of Contents




                                                           ■■ Interviewed employees in the Postal Service’s Office of General Counsel to determine the office’s role in the delegation
                                                              process.

                                                           ■■ Used Accounts Payable Excellence and Enterprise Data Warehouse (EDW)18 reports and traced Marketing, Sales, and
                                                              Facilities transactions to certified invoices and determined whether they were within the scope of their delegations.

                                                           ■■ Reviewed Facilities CO delegations and interviewed 11 COs to verify active real estate contracts, determine qualification and
                                                              training requirements, obtain training records, and ensure performance of duties were within the scope of the delegations.

                                                           ■■ Interviewed the manager, Facilities Information Systems, to gain an understanding of Facilities contracting in the eFMS and
                                                              how COs use the system for contracting for real estate services, payments, real estate transactions, and leases.
Findings




                                                           ■■ Benchmarked against the Architect of the Capitol, Department of the Army, Department of the Navy, and the GSA to determine
                                                              whether their Facilities delegations were comparable to the Postal Service’s Facilities delegations.

                                                           ■■ Reviewed Address Quality Service agreements to determine whether they were signed by Postal Service personnel with
                                                              contracting authority.

                                                           We conducted this performance audit from March 2013 through August 2014,19 in accordance with generally accepted government
                                                           auditing standards and included such tests of internal controls as we considered necessary under the circumstances. Those
Recommendations




                                                           standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
                                                           our findings and conclusions based on our audit objectives. We believe that the evidence obtained provides a reasonable basis for
                                                           our findings and conclusions based on our audit objectives. We discussed our observations and conclusions with management on
                                                           June 6, 2014, and included their comments where appropriate.

                                                           We assessed the reliability of computer-generated data in the eFMS and EDW to source documentation to verify compliance
                                                           with delegations and validate contract award information. As part of our assessment, we determined that we could not rely on
                                                           data in eFMS to identify the universe of active contracts; however, we determined the eFMS data we used for reviewing contract
                                                           payments were sufficiently reliable for the purposes of this report.
Appendices




                                                           18	 The EDW provides a single repository for managing the Postal Service’s corporate data assets.
                                                           19	 The OIG suspended the audit from October 1 to 16, 2013, because of the federal government shutdown.
                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                                                                                                                                     Print                    14
Highlights                                                 Prior Audit Coverage
                                                           The OIG issued Contracting of Real Estate Management Services (Report Number SM-AR-13-001, dated June 12, 2013), which
                                                           concluded that Postal Service Facilities officials should improve oversight to mitigate inherent risks associated with the CBRE
                                                           contract. Specifically, there are conflict of interest concerns and no maximum contract value. In addition, the CO did not properly
                                                           approve contract payments, appoint CO representatives to monitor contract performance, or ensure services were provided. As a
                                                           result, it is difficult for the Postal Service to determine whether the outsourcing effort has been or will be effective in reducing costs.
                                                           Management agreed with our recommendations to establish a reasonable maximum contract value based on historical budgets
                                                           and designate COs’ representatives and specify their duties to monitor contract performance and approve payments.
Table of Contents
Findings
Recommendations
Appendices




                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                                                                                                                          Print                                    15
Highlights          Appendix B:                                                                                               Redelegations                             Authority Allowed
                                                                           Delegator/Delegate                                    Issued                                Per Delegation Letter
                    Summary of Delegations
                                                           PMG Delegations
                                                           Chief Marketing and Sales Officer,                                                           Promotional and revenue-generation
                                                                                                                                        21
                                                           Executive VP                                                                                 agreements.
                                                                                                                                                        International promotional and revenue-
                                                           VP, Global Business                                                          3               generation agreements.
                                                           VP, Facilities                                                               74              Real estate and related services contracts.
                                                                                                                                                        Growth opportunity agreements for digital
Table of Contents




                                                           President, Digital Solutions2                                                1               electronic commerce.
                                                           VP, Supply Management Delegations
                                                                                                                                                        Nondisclosure agreements3 (NDA) and
                                                           All Officers                                                                67               interagency agreements. The authority can
                                                                                                                                                        be redelegated to Postal Career Executive
                                                                                                                                                        Service (PCES) direct reports.
                                                                                                                                                        Redelegation of authority to PCES direct
                                                           VP, Sales                                                                    14              reports to sign NDAs within the functional
                                                                                                                                                        area.
                                                           Source: OIG analysis of delegation of authority letters provided by the Postal Service.
                                                           1 The chief marketing and sales officer, executive VP, redelegated authority to the VP, Channel Access. In addition, the VP, Channel Access, redelegated
                                                           the authority to the 81 district managers to execute no-fee licensing agreements between the Postal Service and retailers that offer package shipping and
                                                           related services.
                                                           2 The PMG issued the delegation to the president, Digital Solutions, who retired. Before retiring, he redelegated the authority to the manager, Digital
Findings




                                                           Alliances, on February 1, 2013, and this delegation remained active.
                                                           3 NDAs protect the interest of both parties when business imperatives require mutual sharing of sensitive business information.
Recommendations
Appendices




                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                                                                                                                                                                   Print               16
Highlights          Appendix C:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                           Print   17
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                           Print   18
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                           Print   19
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                           Print   20
Highlights
Table of Contents
Findings




                                                              Contact us via our Hotline and FOIA forms, follow us on social
                                                           networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                  or abuse. Stay informed.
Recommendations




                                                                                 1735 North Lynn Street
                                                                                Arlington, VA 22209-2020
                                                                                      (703) 248-2100
Appendices




                    Delegations of Contracting Authority
                    Outside of Supply Management
                    Report Number SM-AR-14-007
                                                                                                                                    Print   21
